                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: I03120078
                                                                                    I          Page 1 of 2



         This investigation was initiated based on a referral from NSF's Cost Analysis and Audit ,
         Resolution Branch (CAARB), Division of Acquisition and Cost Support. CAARB conducted a
         review of expenditures involving an NSF award' administered by a school districe. C M R B
         found that the PI^ on the award was also the President of company, and had signed invoices on
         behalf of his company that were reimbursed from the NSF award. CAARB requested that we
         investigate the apparent Conflict of Interest and the payments from the NSF award to the PI and
         his company to ensure that the PI did not improperly benefit.

         The school district provided account summaries and copies of source documents involving all
         payments to the PI and his company. Review and analysis of the documents identified a high
                                                                                                        I1
         percentage of payments to PI and his company that included inadequate supporting
         documentation for consulting and payroll payments to the PI and his company.
                                                                                                     11

         We conducted an on-site investigation and review of original documents and found that the PI,
         with the approval of the Superintendent of school district, had retired from his position of
         Assistant Superintendent, and established his company to receive consulting payments for work
         performed under the NSF award and other services performed for the school district. Neither the
         PI nor the Superintendent notified NSF of the change in the PI's position from Assistant
                                                                                                    I
         Superintendent to retired consultant.
                                                                                                    I


         The Superintendent and the PI agreed to pay additional personnel through the PI's company so
         that these new, temporary employees would not become vested in the school districts retirement
         system. We reviewed this process and found that the payroll process had adequate controls and
         payroll payments were sent by electronic direct deposit to the private bank accounts of the
         personnel that worked on the NSF award. We also reviewed consulting payments to the PI and
         found that the PI did not receive excess compensation from the NSF award.             I



         The AccountantA3usiness Manager and the current Superintendent have begun a process to look
         at business practices to strengthen internal controls and ensure that separation of duties are a part
         of all business practices. The current school district management are also working with the
         School Board to update the Conflict of Interest policy.




NSF OIG Form 2 (1 1/02)
E




                                        CLOSEOUT MEMORANDUM




    We found that the school districts accounting system was adequate because we were able,to
    retrieve all requested documents during the on-site review. Further audit or review of the school
    district is not required because most of the direct expenses were reviewed and the school district
    reimbursed NSF $4292.99 for expenses charged in error. In addition, the school district does not
    currently have NSF funding and the new management team is dedicated to improving their
    accounting and administrative systems.

    Accordingly, this case is closed.
